<html>
<title> - NOMINATION HEARING</title>
<body><pre>[Senate Hearing 115-575]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-575

                          PENDING NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

        NOMINATION OF WILLIAM N. BRYAN TO BE UNDER SECRETARY FOR
          SCIENCE AND TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND
        SECURITY AND PETER T. GAYNOR TO BE DEPUTY ADMINISTRATOR,
   FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                                SECURITY

                               __________

                            AUGUST 22, 2018

       Available via the World Wide Web: http://www.Govinfo.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
 Available via the World Wide Web: http://www.govinfo.gov
                     
                                __________
                                
 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
32-491 PDF                  WASHINGTON : 2019                     
           
 --------------------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="582837183b2d2b2c303d3428763b373576">[email&#160;protected]</a>     
        

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
JAMES LANKFORD, Oklahoma             GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming             MAGGIE HASSAN, New Hampshire
JOHN HOEVEN, North Dakota            KAMALA D. HARRIS, California
STEVE DAINES, Montana                DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
               Margaret E. Daum, Minority Staff Director
                  Michael J. Broome, Minority Counsel
                     Laura W. Kilbride, Chief Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     3
    Senator Peters...............................................    10
    Senator Hassan...............................................    12
    Senator Lankford.............................................    14
    Senator Jones................................................    17
    Senator Carper...............................................    19
    Senator Daines...............................................    22
Prepared statements:
    Senator Johnson..............................................    31
    Senator McCaskill............................................    32
    Senator Reed.................................................    37

                               WITNESSES
                       Wednesday, August 22, 2018

Hon. Jack Reed, a U.S. Senator from the State of Rhode Island....     1
William N. Bryan to be Under Secretary for Science and 
  Technolgoy, U.S. Department of Homeland Security
    Testimony....................................................     6
    Prepared statement...........................................    39
    Biographical and financial information.......................    42
    Letter from the Office of Government Ethics..................    59
    Responses to pre-hearing questions...........................    62
    Responses to post-hearing questions..........................    88
Peter T. Gaynor to be Deputy Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security
    Testimony....................................................     8
    Prepared statement...........................................    99
    Biographical and financial information.......................   102
    Letter from the Office of Government Ethics..................   122
    Responses to pre-hearing questions...........................   125
    Responses to post-hearing questions..........................   155
    Letters of support...........................................   160
Letter referenced by Senator Reed................................   174

 
                           NOMINATION HEARING

                              ----------                              


                       WEDNESDAY, AUGUST 22, 2018

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
342, Dirksen Senate Office Building, Hon. Ron Johnson 
presiding.
    Present: Senators Johnson, Lankford, Daines, McCaskill, 
Carper, Heitkamp, Peters, Hassan, Harris, and Jones.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. Good morning. This hearing will come to 
order. We are pleased to welcome two distinguished nominees, 
one for Under Secretary for Science and Technology (S&T) of the 
U.S. Department of Homeland Security (DHS), and the other to be 
Deputy Administrator for the Federal Emergency Management 
Agency (FEMA), U.S. Department of Homeland Security, and that 
nominee, Mr. Peter Gaynor, is from the great State of Rhode 
Island, and we have the distinguished Senator from Rhode Island 
who is going to introduce Mr. Gaynor. So without further ado 
and out of respect for the Senator's schedule, Senator Reed, 
the floor is yours.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 31.
---------------------------------------------------------------------------

   STATEMENT OF THE HONORABLE JACK REED,\2\ A UNITED STATES 
             SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Reed. All right. Thank you, Chairman Johnson, 
Ranking Member McCaskill, and Senator Peters. Thank you for 
this opportunity to introduce Peter Gaynor, whom the President 
has nominated to serve as Deputy Administrator of the Federal 
Emergency Management Agency.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Reed appears in the Appendix 
on page 37.
---------------------------------------------------------------------------
    Before I begin, let me acknowledge Director Gaynor's 
family. His daughter, Grace, and his brother, Paul, are here 
today, and his wife, Sue, who could not attend but is very much 
here in spirit. I want to thank them for their support and 
sacrifice.
    Mr. Chairman, as the Committee examines Director Gaynor and 
his record I hope you find, as I have, that he is a dedicated 
and capable leader of high integrity. In more than two decades 
as a member of the United States Marine Corps (USMC), he rose 
from the rank of Private to Lieutenant Colonel, serving at 
Headquarters Marine Corps on September 11, 2001 (9/11) and 
later in Iraq in 2006. After witnessing the attack on the 
Pentagon on 9/11, Director Gaynor and his team worked to 
reestablish the Naval Operations Command which had been 
destroyed in the attack, allowing the Chief of Naval Operations 
to seamlessly direct the Navy's service missions and their 
response to the attack on 9/11.
    In 2006, Director Gaynor was deployed in support of 
Operation Iraqi Freedom, with the First Marine Expeditionary 
Force, and assisted with the coordination of combat operations 
in Al-Anbar Province.
    After retiring from the Marine Corps, Director Gaynor was 
tapped to lead the city of Providence Emergency Management 
Agency (EMA). In this role, he modernized the city's emergency 
operation center, coordinated its response and recovery 
efforts, including those three federally declared disasters. He 
also led Providence through the Emergency Management 
Accreditation Program 
(E-MAP) in 2010, making it the first city to learn this 
accreditation.
    Because of his recognized leadership within city 
government, he was twice temporarily assigned to the Providence 
Public School Department to help direct and guide operations of 
the school system, which includes 24,000 students, 2,200 
employees, and 40 facilities.
    In 2015, Director Gaynor was appointed by Governor Gina 
Raimondo to serve as the cabinet-level director of the Rhode 
Island Emergency Management Agency (RIEMA). In this role, he 
has been responsible for developing and coordinating the 
response in natural, man-made, and technological disasters. He 
has also worked to manage the recovery from several previous 
federally declared disasters, and as the leader for emergency 
management in the Ocean State, he has worked to help 
communities become more prepared and resilient, which is part 
of the reason that the Rhode Island League of Cities and Towns 
has enthusiastically endorsed his nomination, and I would ask 
that a letter\1\ to the effect be included in the record.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Reed appears in the Appendix 
on page 174.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Reed. As he did in Providence, Director Gaynor also 
worked to completely modernize the Rhode Island EMA. With a new 
organizational framework, he assembled a trained team with 
skills to meet emergencies and challenges, and Director 
Gaynor's success in reorganizing the agency was recognized with 
an accreditation under E-MAP in 2017.
    In sum, Director Gaynor has earned the respect and 
admiration of the people who worked alongside him. That 
reputation is why it is difficult for us in Rhode Island to see 
him leave, but it also why we know that he will do an excellent 
job at FEMA. With the countless challenges FEMA faces, 
particularly now during the height of hurricane season, we need 
Director Gaynor on the job.
    So, Mr. Chairman, I will not delay the proceeding any 
further. Thank you very much for your kindness.
    Chairman Johnson. Well, thank you, Senator Reed. That was a 
great introduction, so again, we appreciate you coming here and 
making that.
    Our hearing today is on two nominations. I want to thank 
the nominees, first of all, for your prior service to this 
Nation and your willingness to serve again in these capacities. 
These are incredibly important jobs, from my standpoint. I also 
want to thank your families. Working for the Federal Government 
in this capacity, you will definitely be taking some time away 
from your families. So I hope in your opening remarks you can 
introduce those family members that are also making that exact 
same sacrifice.
    The two positions we are holding this nomination hearing 
for, first the Deputy Administrator of FEMA is responsible for 
assisting the Administration in leading the agencies, which 
includes advising the President and Secretary of Homeland 
Security in directing the government's response to major 
disasters and terrorist attacks. We have Hurricane Lane bearing 
down on Hawaii today, as we speak, so I think this is a pretty 
timely hearing. We had a freak rainfall in Madison, Wisconsin. 
It dumped, by one report, 15 inches. Tragically, a 70-year-old 
gentleman, a Wisconsite, died in that. So these types of 
emergencies can occur anywhere in this Nation, almost at any 
point in time.
    The Deputy Administrator also supports the Administrator in 
overseeing FEMA's various assistance programs, including the 
National Flood Insurance Program, Homeland Security grants and 
disaster assistance. In all, FEMA's Deputy Administrator helps 
oversee approximately 9,700 employees as well as reservists 
activated to respond to a disaster. FEMA makes up 22 percent of 
the DHS's overall budget.
    Our second position is the Under Secretary for Science and 
Technology. That position is responsible for advising the 
Secretary regarding research and development and leading the 
Science and Technology Directorate. The Science and Technology 
Directorate researches and develops tools and products to 
enhance the work of the Department's components. The Under 
Secretary oversees about 485 employees.
    So again, I am looking forward to your testimony. I 
certainly appreciate your willingness to serve. And with that I 
will turn it over to our Ranking Member, Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you, Mr. Chairman. I think these 
are both very important positions within DHS. Mr. Bryan is 
nominated to head S&T Directorate. It was established to 
administer the research and development (R&D) activities at DHS 
and to ensure the men and women defending the homeland have 
access to the best available technology.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 32.
---------------------------------------------------------------------------
    You come to the Committee having already spent more than a 
year working at S&T in an acting capacity, where you have been 
working closely with Democratic and Republican staff of this 
Committee on the DHS authorization and on finding solutions to 
problems which the Directorate has struggled with since its 
establishment. Before joining DHS, you already had a long and 
distinguished career in the United States Army and the 
Department of Energy (DOE), and we appreciate your willingness 
to reenter public service.
    I look forward to hearing from you today about how you plan 
to reshape S&T to make it a more effective advocate for 
research and development. S&T can be a powerful force ensuring 
that technology acquisitions at DHS are not wasteful and 
enhance our security, and I hope that you will make S&T a 
partner in improving the technology and acquisition process at 
DHS.
    As you know, there has been some money wasted. We have 
sometimes lurched from one technology decision to another, 
leaving in its wake hundreds and millions of dollars of 
taxpayer money wasted.
    I am also very interested to hear from you about the 
Administration's plans to move the National Bio and Agro-
Defense Facility (NBAF) from DHS to the Department of 
Agriculture (USDA). Chairman Johnson and I, along with a 
bipartisan group of Senators, have requested a Government 
Accountability Office (GAO) review of this transfer, and I will 
be looking for a clear explanation of how S&T expects to handle 
the move and whether the plans for construction of a new 
facility are staying on target and are adequately funded.
    Mr. Gaynor, I am glad to see you. I got a card from one of 
my oldest and smartest friends, Carol Grant, that evidently 
knows you personally. That is a pretty darn high recommendation 
in my book, so I was pleased to hear that she knows you and has 
a great deal of confidence in you.
    I know you come with over 30 years of experience as a 
public servant, first in the Marine Corps and then with city of 
Providence. Your recommendation by Senator Reed is almost as 
important as Carol Grant's. From all accounts, you are a leader 
in the emergency management field and a no-nonsense manager.
    You have a big job ahead of you, and I need to know you are 
up to the task. There are a number of management challenges you 
will face, if confirmed, none more important than ensuring that 
the FEMA employees have a workplace free from harassment, 
discrimination, and unfair hiring practices. That appears to 
have not been the case in the recent past, at least in FEMA's 
human resources (HR) division. According to results of an 
internal investigation, which was recently shared with me and 
the Chairman of the Committee, the former head of HR at FEMA 
was engaged in improper sexual relationships with subordinates, 
promised promotions in exchange for continuing those 
relationships, and improperly hired or assisted in the hiring 
of personal friends who were unqualified for the positions they 
received.
    According to FEMA and the Department of Homeland Security 
Office of Inspector General (OIG), there had been nearly two 
dozen complaints about the former HR director dating back to 
2013. However, when the complaints were referred to FEMA by the 
Inspector General's (IGs) office, it is unclear what, if 
anything, FEMA did about them. This is the exact same thing 
that the GAO took FEMA to task for in a report issued last 
year. GAO found that, among other things, FEMA was not 
investigating and did not have a good system for tracking 
misconduct referrals. I know, Mr. Gaynor, you did not make this 
mess, but confirmed, you are responsible for cleaning it up. I 
would like to hear from you about how you intend on doing that.
    Another topic on FEMA personnel, one of the major findings 
of the 2017 After-Action Report was that FEMA experienced 
severe staffing shortages when responding to back-to-back 
hurricanes, coupled with historic wildfires and other 
outstanding disaster recoveries in States like Missouri. At one 
point last year, more than 70 percent of FEMA's workforce was 
deployed to disaster-affected areas. The agency had to pull 
staff from other components and from non-DHS departments. These 
were folks who were not typically trained in disaster response 
and recovery. While FEMA has made strides in hiring over the 
past year, the agency is still 5,000 employees short of its 
targeted staffing goals, and many of the employees on board at 
FEMA today do not meet the qualification standards the agency 
has set for itself.
    I worry if whether FEMA is ready to respond if, God forbid, 
we have another disaster year like 2017. I want to hear about 
your plans for hiring, retaining, and training qualified 
employees.
    And finally I would like to touch on the issue that was 
hardly mentioned in FEMA's After-Action Report, which was 
surprising to me, and that is disaster contracting. I realize 
that FEMA is not built to handle everything in-house. In some 
cases, contractors are needed. But the very least we can do 
going forward is to make sure that communities have the 
contracts and commodities pre-positioned if they need those 
kinds of contract work when disaster strikes. The worst time to 
be soliciting bids for goods and services is in the aftermath 
of one of these disasters. As we have seen time and time again, 
in the response to Hurricanes Harvey, Irma, and Maria, this can 
lead to cost overruns, contract cancellations, unnecessary 
delays, and outright fraud, which ultimately impact disaster 
survivors and the American taxpayer. I hope if you are 
confirmed you will take a close look at what FEMA can do to 
improve pre-event contracting at the Federal, State, and local 
levels.
    Thank you both for being here today and thank you for your 
willingness to serve the public.
    Chairman Johnson. Thank you, Senator McCaskill. It is the 
tradition of this Committee to swear in witnesses, so if you 
will both stand and raise your right hand.
    Do you swear the testimony you will give before this 
Committee today will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Bryan. I do.
    Mr. Gaynor. I do.
    Chairman Johnson. Please be seated.
    Our first nominee will be William Bryan. Mr. Bryan is 
currently serving as the Senior Official Performing the Duties 
of the Under Secretary for Science and Technology (SOPDUSST). 
Prior to joining DHS, Mr. Bryan was the President of 
ValueBridge International's Energy Group. He previously served 
in several senior leadership positions within the Departments 
of Energy and Defense (DOD), including serving as the Director 
for Critical Infrastructure Protection within the Department of 
Defense's Office of the Under Secretary for Defense Policy.
    Mr. Bryan honorably served for 17 years in the U.S. Army 
and 3 years in the Virginia National Guard. Mr. Bryan.

  TESTIMONY OF WILLIAM N. BRYAN,\1\ TO BE UNDER SECRETARY FOR 
  SCIENCE AND TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Bryan. Chairman Johnson, Ranking Member McCaskill, and 
distinguished Members of the Committee, I appreciate the 
opportunity to be here today as you consider my nomination by 
the President to be the Under Secretary for Science and 
Technology within the Department of Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bryan appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    I would like to begin by thanking both the President and 
the Secretary for their trust and confidence in me to be 
nominated for this position.
    I would also like to thank my family, friends, and 
colleagues who are here today to offer their strength and 
support. I first want to express my deepest admiration and 
appreciation for my bride of 39 years, Darlene. Together, we 
have laid a foundation built on faith in Christ, love of 
family, and trust--a foundation that has supported me 
throughout my career. We have been blessed with four children 
and eight grandchildren. Most of them are with me today. I will 
try to introduce them. I may not get the order right, because I 
cannot see all the way behind me. But you have Jadon, Evan, 
Liam, and my daughter, Lindsay, and then in the second or third 
row back there you have Matthew, Titus, Benjamin, and Lydia, as 
well as Kohana. Those are all my grandchildren. My daughter, 
Lauren, is also back there with my son-in-law, Jeff, my 
daughter-in-law, Hannah, and assorted other members of close 
friends and colleagues of mine. I have two sons who could not 
be here today, for work reasons.
    Throughout their lives, they have supported me as I have 
embarked on many opportunities to serve our country, including 
living in foreign lands and relocating the family multiple 
times. And today, they are standing by me for my greatest honor 
to date, being nominated by the President to serve DHS. They 
are my joy and I love them very much and thank them for their 
love and commitment along life's journey. We are a team and I 
would not be here today if it was not for them.
    My career over the past 40 years has prepared me for this 
moment, beginning at the age of 19 in a suburban Detroit steel 
factory supervising 60 individuals and culminating with my 
current position as the Senior Official Performing the Duties 
of the Under Secretary for Science and Technology. I have been 
fortunate to work in the private sector as well as having had 
the honor of serving the Nation, including 17 years in the 
active military, serving in the Army, and 3 years in the 
Virginia National Guard.
    My comprehensive experience as a leader, manager, 
technician, and program architect has spanned the areas of 
infrastructure security, energy restoration, homeland defense, 
critical infrastructure protection, and risk management. At the 
core of achieving these national security objectives was my 
ability to effectively communicate, collaborate, coordinate, 
and build consensus within my organization and in partnership 
with local, State, and tribal governments, external agencies, 
and the defense and utility industries.
    My role, should I be confirmed, is to serve as the science 
advisor to the Secretary and ensure that S&T delivers results 
by applying timely scientific, engineering, and innovation 
solutions through research, design, test and evaluation, and 
acquisition support. To accomplish this, I will assure we have 
revitalized structures, processes, and procedures in place to 
enable S&T to provide impactful solutions to whatever the 
threats facing our customers. We must provide a deliberate 
approach to program execution that ensures a timely delivery 
and a solid return on investment of our Nation's taxpayers.
    Technology innovation cycles are rapidly changing and the 
nature of the threats we see is dynamic. This combination 
presents a significant challenge to traditional R&D. I believe 
my operational background and experience working with our 
national labs provide me the foundation needed to 
operationalize S&T's R&D activities, to better support the 
missions of the Department and the Nation's first responders.
    As a leader, I am committed to servant-leadership and 
honoring the value of the talented men and women of S&T. Should 
I be confirmed, I will effectively communicate a vision for the 
organization and seek the resources and tools necessary to 
achieve that vision. It is my duty to describe what success 
looks like and allow them the flexibility to achieve it. I will 
empower my leadership team to make decisions while emphasizing 
the importance of ensuring that those decisions are well 
informed.
    S&T's customers put their lives on the line every day to 
keep our Nation safe. If confirmed, it will be my mission to 
ensure an efficient and effective organization is in place to 
address their R&D needs for today and into the future, and it 
would be my honor to serve with them.
    Finally, I would like to thank the Chairman, Ranking 
Member, and the Senators on this Committee for your recent 
legislative actions on behalf of the Department, and 
specifically S&T, regarding S. 2836, the Preventing Emerging 
Threats Act, which would enable us to actively research, 
develop, and verify that any unmanned aircraft system (UAS) 
used by our law enforcement officers to counter other nefarious 
unmanned aircraft is effective, efficient, and safe.
    Chairman Johnson, Ranking Member McCaskill, and 
distinguished Members of the Committee, thank you again for 
your consideration. I look forward to answering your questions.
    Chairman Johnson. Thank you, Mr. Bryan.
    Our next nominee is Peter Gaynor. Mr. Gaynor is currently 
serving as the Director of the Rhode Island Emergency 
Management Agency. Mr. Gaynor previously served as the Director 
of the Providence Emergency Management Agency and Office of 
Homeland Security, where he was responsible for coordinating 
the disaster response and recovery efforts. Mr. Gaynor 
honorably served for nearly 30 years in the United States 
Marine Corps, retiring with the rank of lieutenant colonel. Mr. 
Gaynor.

 TESTIMONY OF PETER T. GAYNOR,\1\ TO BE DEPUTY ADMINISTRATOR, 
    FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Gaynor. Good morning Chairman Johnson, Ranking Member 
McCaskill, and distinguished Members of the Committee. My name 
is Pete Gaynor, and it is a privilege to appear before you 
today as the President's nominee to the position of Deputy 
Administrator for FEMA. I am honored to have been nominated by 
President Trump for this very important emergency management 
leadership role. If confirmed, I look forward to working with 
Secretary Kirstjen Nielsen, Administrator Brock Long, and the 
entire team at the Department of Homeland Security on building 
a more resilient and prepared nation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gaynor appears in the Appendix on 
page 99.
---------------------------------------------------------------------------
    I would like to recognize a few members of my family that 
are here today, my daughter, Grace, and my brother, Paul. 
Unfortunately, my wife is working and could not be here. And 
other members that are supporting me today, thank you for being 
here today with me.
    I would also like to acknowledge the efforts of the men and 
women of FEMA and the thousands of civilian employees and 
military service members, from more than 30 agencies and 
departments across the Federal Government who were deployed 
this past year, for the singular purpose of helping others. If 
confirmed, it would be my sincere privilege to face the 
challenges of emergency response alongside these dedicated 
public safety professionals.
    I spent 26 years serving my country in the Marine Corps, 
first as an enlisted Marine then as a Commissioned Officer. I 
may be biased, but I would like to believe I have attended the 
finest, most demanding leadership academy in the world. From 
Private to Lieutenant Colonel, I have followed and led some of 
the most exceptional men and women this country has produced, 
in some of the most inhospitable and dangerous corners of the 
globe. I have learned how to thrive in chaos, use intellect to 
overcome daunting obstacles, to never ever quit, and most 
importantly, that your personal integrity is everything.
    I know from first-hand experience the significance of the 
Homeland Security mission and emergency response. In 2006, I 
deployed in support of Iraqi Freedom with the 1st Marine 
Expeditionary Force (Forward) and assisted with the 
coordination of combat operations for multinational and Marine 
forces, including mass casualty evacuations and recovery of 
downed and missing aircraft and personnel.
    Prior to my tour in Iraq, I served as the head of Current 
Operations at Headquarters Marine Corps. I had been on the job 
for approximately 30 days when I witnessed, again, first-hand, 
the attack on the Pentagon and our country on September 11, 
2001. As a result of that attack, the Navy Operations Center 
(NOC) of our sister service was destroyed. My team and I 
quickly reconfigured our Crisis Response Center to accommodate 
and reestablish the NOC with new equipment, personnel, and 
operational support, ensuring the Chief of Naval Operations 
could seamlessly maintain operations across the globe.
    Following the attack, I managed around-the-clock operations 
supporting the Marine Corps around the world. This included 
Continuity of Operations and the Joint Emergency Evacuation 
Plans for Headquarters Marine Corps in support of the Global 
War on Terror. Prior to September 11, 2001, I served as the 
Executive Officer responsible for the security of the President 
at Camp David.
    After retiring from the Marine Corps in 2007, I 
transitioned to my current profession of emergency management, 
taking with me those valuable leadership skills, training, and 
experiences which proved to be indispensable in leading local-
and State-level emergency operations and planning, again, first 
for the City of Providence and second, the State of Rhode 
Island.
    At the city level, I was responsible for coordinating 
response and recovery efforts, both large and small. During my 
tenure, I led Providence's emergency management accreditation 
effort, which resulted in the city becoming the first 
municipality in the Nation to receive that distinction. At the 
mayor's behest, I also served the Providence Public School 
District as the Acting Chief of Staff and later as the Acting 
Chief Operating Officer, in support of the superintendent and 
the 24,000 students and over 3,200 employees spread across 40 
facilities.
    In 2015, I was appointed by Governor Gina M. Raimondo and 
had the high honor to serve as the Cabinet-level Director of 
the Rhode Island Emergency Management Agency. I am the senior 
policy advisor to the Governor on emergency management matters 
and the principal liaison between all local emergency 
management offices and FEMA.
    During my tenure, the agency responded to numerous 
disasters, including one Presidentially declared disaster and 
seven preexisting Federal disasters. I also spearheaded the 
effort to completely transform the State's antiquated cold war-
era civil defense job descriptions into a modern model to hire 
the best and brightest to meet today's threats and hazards. And 
again, for a second time, I led the State to accreditation this 
past year.
    My experience in the Marine Corps and leading emergency 
management programs is directly relevant to the position of 
FEMA Deputy Administrator. Today we face a multitude of 
challenges that must be successfully navigated to ensure FEMA 
can deliver those critical services to the Nation when it 
counts the most.
    In conclusion, I believe we have seen, from recent 
experiences, that we cannot work alone in our efforts to 
diminish the impact of disasters. Without prepared residents no 
neighborhood can be truly prepared, without strong 
neighborhoods no municipality can be prepared, and there can be 
no strong State response, and without prepared States there 
cannot be a truly robust, effective Federal response and 
recovery effort.
    If confirmed, it would be my honor to serve in what I 
consider to be the most challenging job in government, helping 
communities reduce the risks associated with future disasters 
while assisting disaster survivors across the country. I will 
work relentlessly and with purpose to ready the Nation for 
catastrophic disasters, build a culture of preparedness, and 
reduce the complexity of FEMA. I can think of no higher honor 
than serving the American people.
    Thank you for your consideration of my nomination and I 
look forward to answering any questions you may have.
    Chairman Johnson. Thank you, Mr. Gaynor. I think you can 
just tell how important this Committee believes these positions 
are, based on the attendance.
    We do ask three questions of every nominee. I will ask them 
and I will ask for a response from each one of you.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated. Mr. Bryan.
    Mr. Bryan. No, Chairman.
    Chairman Johnson. Mr. Gaynor.
    Mr. Gaynor. No, Chairman.
    Chairman Johnson. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated? Mr. Bryan.
    Mr. Bryan. No, Chairman.
    Mr. Gaynor. No, Mr. Chairman.
    Chairman Johnson. Do you agree, without reservation, to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed? Mr. Bryan.
    Mr. Bryan. Yes, Mr. Chairman.
    Mr. Gaynor. Yes, Mr. Chairman.
    Chairman Johnson. Thank you. Again, I want to be respectful 
of my colleagues' time here so I will defer my questions until 
the end, and I will go to Senator McCaskill.
    Senator McCaskill. I will go ahead and allow my colleagues 
to question also, since I intend to stay.
    Chairman Johnson. That would then be Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and 
congratulations, Mr. Bryan and Mr. Gaynor, for your 
nominations, and, if confirmed, your willingness to serve in 
these very important positions.
    Let us start with you, Mr. Gaynor. I certainly appreciated 
our meeting a few weeks back, and I wanted to followup on some 
of the issues that we discussed during that meeting. When we 
had a chance to meet we spoke about the ongoing response to 
devastating flooding that occurred in the Upper Peninsula of 
Michigan, probably very similar, I think, to what happened in 
Wisconsin, Mr. Chairman. And since our meeting, the President 
did approve a major disaster declaration for public assistance 
and we are in the process now of appealing the denial for 
individual assistance, and would hope that we could work with 
you as we continue through that process, if you are confirmed.
    I stressed with you the unique challenges that we face in 
the Upper Peninsula, as we are trying to deal with this 
situation, primarily the construction season, which is very 
short there. Winter comes very quickly and is just around the 
corner, as we are enjoying August weather now. Things are going 
to change pretty quickly in the Upper Peninsula. And as a 
result of that, it is very frustrating when we have 
bureaucratic layers that stand in the way of getting the 
resources necessary to deal with a crisis, particularly small 
communities that have very limited resources and have huge 
costs involved, and they need those dollars very quickly.
    So my question to you is are there changes that FEMA can 
make in the way that we manage disaster grants, or can the 
agency be more flexible in the way it responds, particularly to 
rural and economically disadvantaged communities as they 
attempt to recover?
    Mr. Gaynor. Thank you, Senator. It was really a pleasure 
talking to you a couple of weeks ago on these matters.
    Having been a local emergency manager and a State emergency 
manager, one thing that I have learned is that the bandwidth is 
not the same at the local level, at the State level, at the 
Federal level, so you have to right-size the response. You have 
to make sure that what you are asking a local community to do 
is within their means to do it. You want to make it as simple 
as possible. I think the Administrator is on track with his 
goal to reduce the complexity of FEMA. As a State director and 
a local director I have been perplexed sometimes at how 
complicated some simple things can be. So I will be a great 
proponent of making the delivery of disaster grants and help to 
make sure that locals can get back to near normal. Again, from 
my State and local perspective, that is where it all counts, 
down at the local level, and I will commit to you to work hard 
to simplify that process.
    Senator Peters. Well, very good. If confirmed, I will look 
forward to working very closely with you to do this. It has 
become quite apparent that there is much work to be done in 
that area, as you know.
    Mr. Bryan, the DHS authorization bill eliminated the 
Homeland Security Advanced Research Projects Agency (HSARPA) 
and replaced it with the Office of Chief Scientist (OCS). 
Conceivably, this office will be concerned with longer-term 
research and technologies. But I am curious how this fits with 
your model, that you have expressed, of being customer driven 
and having customer-driven projects. When we look at the 
technology like Clustered Regularly Interspaced Short 
Palindromic Repeats (CRISPR) and the potential for genetically 
modified threats for quicker development of vaccines and 
countermeasures, it is also difficult to conceive of the 
requirements for solutions when problems are not yet really 
fully defined, and that is certainly not unusual when you are 
dealing with emerging technologies and emerging technologies 
that are moving very rapidly.
    So my question is, will S&T be waiting for the new 
Countering Weapons of Mass Destruction (CWMD) office to come up 
with requirements for bio-surveillance and bio-security related 
to these technologies like CRISPR, or can S&T play an earlier 
role in the research and potentially inform CWMD on what 
problems they might see in the future, but are simply not 
contemplating yet because of rapid changes we are seeing in 
this area?
    Mr. Bryan. Senator, thank you for those questions, and I 
will take each one as you laid them out.
    First, HSARPA. HSARPA, we have never really fully been 
funded or adequately resourced to really do ARPA kind of work. 
I do not think that is a surprise. I think we have been judged 
as an ARPA organization, but we really do not have that. We 
work for a law enforcement agency. That is what DHS is. And the 
time it often takes in a traditional ARPA organization to get 
to the solution is often too much time that we have to be able 
to deal with, and we have to shorten that timeline up.
    I think the Office of the Chief Scientist is going to be a 
much better, more agile fit for us. As we focus on a lot of the 
more, and I will say, tactical issues and requirements within 
the Department will allow them to look over the horizon. What 
are the next advances in machine learning and artificial 
intelligence and other kinds of things to keep us informed? We 
cannot take our eye off the ball with future threats coming 
down the pike for us, and I believe in the reauthorization 
language. Getting away from HSARPA and going to an Office of 
the Chief Scientist is going to be much better for us.
    Regarding CRISPR, we are involved in CRISPR. CRISPR--
merging genes, or Deoxyribonucleic acid (DNA), has 
traditionally been a challenge. CRISPR has helped to overcome 
that, as you well know, and there can be a good and a bad side 
to that. There can be a lot of advantages to the medical 
community, obviously, but any time we invent something or 
create something good for mankind there is always going to be 
that sector of people out there trying to use it against us.
    We are currently working at the NBAF right now to look at 
what some of those potential threats could be if this 
technology is used in the wrong way, and if confirmed, Senator, 
I would welcome you to come to the NBAF and have a classified 
briefing on some of the work that we are doing in this space.
    Regarding the stand-up of CWMD, they were stood up to help 
consolidate and coordinate the requirements for Chem/Bio. We 
serve them as we survey, though, the component, although 
traditionally not a component. They are a headquarter entity. 
We do look for them to provide us those requirements. It is 
still a growing organization. We are working with them very 
closely to help them structure what those requirements should 
be. The work that we have been doing in that space we are 
continuing to do, and as new requirements come in to replace 
them, then we will switch gears, based on the requirements 
coming out of CWMD.
    Senator Peters. Great. Thank you, both of you gentlemen. 
Thank you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair and Ranking Member, 
and thanks to the two nominees. Thank you for your willingness 
to serve and thank your families, too, because this is a family 
affair and we are very grateful to their support to the two of 
you in your already distinguished careers.
    Mr. Gaynor, I enjoyed our conversation now a few weeks ago 
as well, and I wanted to touch on FEMA's new strategic plan. As 
you know, it was released by Administrator Long and says that 
emergency management is locally executed, State managed, and 
federally supported, and obviously that is all a concept that 
we support. However, we also have to be prepared for large-
scale natural disasters that can wholly wipe out the local and 
State capacity to execute and manage disaster response. 
Certainly at the State level we all know that there are times 
when single communities get hit particularly hard. At times a 
whole State can be hit particularly hard. When this happens it 
is up to the Federal Government to perform all three roles, and 
you had a conversation with Senator Peters just now about that.
    FEMA's 2017 hurricane season after-action review detailed 
how FEMA was short-staffed during the responses to Hurricanes 
Maria and Irma. The after-action review also detailed how, in 
Puerto Rico, FEMA was required to step in and perform many of 
the roles that the State and local responders usually perform, 
yet the after-action review does not make recommendations about 
how FEMA can strengthen its ability to perform these direct 
emergency response functions when major disasters wipe out the 
State and local response capabilities.
    So, Mr. Gaynor, how will you seek to prepare FEMA to be 
able to handle the next Puerto Rico-style emergency? What 
lessons have you learned for your time as a U.S. Marine and as 
Rhode Island's emergency manager that will help you, and that 
you can apply to this task?
    Mr. Gaynor. Thank you, Senator Hassan. It was a great 
pleasure to speak to you about a lot of things in common, I 
think, for States our size, in New England. And I will use my 
experience as a local and State director. Not all things are 
created equal, even among municipalities, even among States. 
Some of those are obvious.
    The Federal Government through preparedness grants has 
built a great capability across the country, encouraging local 
and States to have capacity, and that still has to go on. So 
again, from a local point of view we have a fire department and 
we have a police department and we have public works. We have a 
lot of capacity. As a State director, I am not necessarily a 
first responder so I am really relying on the capacity we have 
built at the local level to help me be successful. And it is 
the same at the Federal level. I mean, with States I am sure 
that the Administrator is relying on the capacity of States 
that we have invested in to make sure that they are ready to 
go. And again, State directors are prepared based on how 
prepared their local municipalities are.
    So there is always work to be done. We have to concentrate 
on it. We have to make sure that we right-size it. One size 
does not fit all, so you just cannot say it has to be like this 
across the country because it does not work. When it comes to 
the capacity of FEMA, I am not sure if FEMA was really built 
for a catastrophic season like we had in 2017. I am not sure 
that was the original design of it.
    Senator Hassan. Right. And that is really what I am trying 
to get at here. We have an After-Action Report. We had an 
extraordinary season in 2017. And we had moments when some of 
us on the phone with the Director who said that Hurricane Maria 
has wiped out the local response capacity, and it did not seem 
to me that FEMA was prepared, at the level that every American 
citizen should expect it to be prepared at, to get in there and 
do the job when the natural disaster was so huge that the 
local-and even State-level response, or territory-level 
response could not do it.
    And I have seen it in towns in New Hampshire. When a flood 
wipes out an entire town, you cannot turn around and say, ``Get 
your fire trucks out.'' The fire trucks are under water.
    So we are looking at more extreme weather. We are going to 
have more seasons like this. What is FEMA doing to ramp up that 
reserve capacity? Because at the end of the day this is about 
lives and property, and FEMA has to be the last resort, when 
everything else has been wiped out.
    Mr. Gaynor. Having spoken to the Administrator on a couple 
of these matters I think one of his focuses is to increase the 
surge capacity force. I think it is really originally designed 
to use the bandwidth of DHS directly. I think after this last 
season we have all come to realize that it probably needs to be 
more. It needs to be all of government, I think, that needs to 
contribute to these efforts.
    And again I go back to my State role. I always say to my 
customers, my boss, the Governor even though this is an 
emergency, it is really not an emergency management-only task. 
This is a whole community task where every department has to 
participate. It is just not emergency management we coordinate. 
That is our role, to coordinate and integrate what goes on out 
in the community, to make sure we deliver those services. But 
it requires everyone to participate.
    So expanding the surge force to other departments I think 
is a good start.
    Senator Hassan. And I appreciate that answer, but, what I 
am trying to get at here is sometimes even the best intended, 
best prepared locality is going to face moments where they 
cannot all participate because of the nature of the disaster, 
and that is where a belt-and-suspenders approach is really 
important. And I would look forward to continuing this 
discussion and working with you.
    I also had a question on the systemic sexual harassment 
that has recently been uncovered and discussed, and the 
beginnings of a response by the Administrator at FEMA. What I 
will do is submit that question for the record because I am 
realizing I am just about out of time. And again, I thank you 
for your service and look forward to working with you.
    Mr. Gaynor. Thank you, Senator.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    Mr. Bryan, let me ask you a couple of questions. One of 
them is when you are dealing with research and technology 
across all of DHS you have a very unique role and you have lots 
of different law enforcement groups that all have specific 
requests, and they want one that is specific for their agency, 
and it has to have a certain widget on it that does exactly 
what they are looking for on it. But you also know other 
agencies need something similar to that.
    So let me give you a practical example. I was down with the 
Coast Guard and U.S. Customs and Border Protection (CBP) and 
noticed that Customs and Border Protection has some non-lethal 
devices to be able to help board a ship, that the Coast Guard 
does not have. They are both in DHS but one of them has the 
non-lethal device and the Coast Guard does not have it yet.
    So how do we deal with technology development across 
agencies to make sure that we are not reinventing the wheel, 
and what one area has access to another area can have access to 
as well?
    Mr. Bryan. Senator, thank you for that question, and it is, 
frankly, a great question, because part of the value-add that 
S&T should bring to the Department is to look at those 
activities going across the Department and minimize duplication 
of effort. We have to streamline some of these activities and 
we have to identify those activities that are cross-cutting and 
utilized them.
    The oversight that I have over the Department, fortunately 
the common appropriations structure has allowed us a little 
more insight into what some of the other components and 
activities are doing in this space to allow us to be able to 
identify those things. Not every activity has to come to S&T 
for their R&D needs, but as we identify and determine where 
some of these areas are that we can leverage and bring 
together, that is one of the priorities we are having to have. 
As we revitalize our own organization we are going to be in a 
better position to be more agile and responsive to be able to 
do those kinds of things.
    Senator Lankford. OK. We are going to count on you because 
the individuals that are in the field that need access to those 
tools do not need to wait on technology to be developed that 
another agency already has. And sometimes another agency has it 
and they just do not know how to be able to share it back and 
forth.
    Mr. Bryan. And Senator, if I may add, a big focus of the 
organization going forward is in our tech foraging. I truly 
believe that probably 60 to 70 percent of our solutions are 
already developed in some way, shape, or form, somewhere, and 
they are out there. And we have to have a mature, robust, and 
systemic way of going out and bringing that technology in, 
doing the Testing and Evaluation (T&E) on it. It may actually 
meet the requirement, just off the shelf. We may have to do 
some additional R&D. But that is going to significantly 
streamline the acquisition process in getting it out to the 
field.
    Senator Lankford. OK. So let me flip the script on you. The 
bad guys, as you mentioned before, with development like CRISPR 
and other things, can get access to good technology off-the-
shelf. Unmanned aerial systems, drones, are also off-the-shelf, 
the bad guys can use in some pretty horrible ways. One of the 
areas that law enforcement and, quite frankly, our military is 
looking for is ways to be able to secure the air above them 
now, and in civilian events, whether that be a New Year's Day 
event, or whether that be a Fourth of July event, where we have 
a tremendous number of people that are out there, they are 
counting on technology also being able to protect them overhead 
as well.
    Tell me about your priority of trying to be able to counter 
drones, taken by a bad guy, used in a public setting.
    Mr. Bryan. Senator, again, I appreciate that question. 
Senate Bill 2836 actually addresses that and it helps us fit 
that bill. Currently, right now, we have the ability to be able 
to detect and to track UASs, but we are not able to take any 
mitigation action. That is a concern. That is a significant 
concern across the entire Department. We cannot even do 
research, development, testing, and evaluation in an 
operational environment.
    Senator Lankford. OK. So let me back up there. What 
research can you do at this point, because there are a lot of 
different options on how to be able to stop a UAS, whether that 
be jamming them, whether it be trying to be able to knock them 
down, whether it be trying to be able to take over their 
system, be able to redirect it. There are a lot of different 
things that are in research. Can you do the research on that?
    Mr. Bryan. We have been doing some limited research in that 
particular space. We are well aware of what those technologies 
are. It is our ability to actually test them in an operational 
environment that is a challenge. We do some work with the 
Secret Service, and I would ask that you get a detailed, 
classified briefing from the Secret Service on some of those 
technologies. But for the broader use, we can go to Federal 
land where it does not replicate an operational environment at 
all and actually do some of this testing. But when you get into 
a city environment where the buildings are taller, technology 
is going to react very differently, and that is the challenge 
we face by not having the ability to do an RDT&E in that.
    Senator Lankford. So that is an issue that this Committee 
has met and worked on already, and worked on pieces of 
legislation to be able to help with, and hopefully we can help 
get that done completely. I appreciate your tenacity for that, 
and your whole family being here and being very supportive of 
you in what you are doing.
    Mr. Gaynor, we have had the opportunity to be able to visit 
as well, and I appreciate that time. Let me back up on one of 
the things that we talked about. As you know, working with any 
disaster, the first response will be local individuals, and 
that is not just local governments but it is local nonprofits, 
it is faith-based entities, it is neighbors. Tell me about 
FEMA's interaction with faith-based entities, nonprofits, and 
neighbors who step up, who may not have been trained in a FEMA 
response, but they show up with buckets and shovels and coffee 
cups, and say, ``I want to be able to help on that.'' Tell me 
about the coordination and trying to be able to work with local 
people that are not FEMA-trained, but that are able bodied and 
willing to be able to help.
    Mr. Gaynor. Senator, thank you, and again, a pleasure to 
talk with you a couple of weeks ago.
    And I will just give you some of the things that we are 
doing in Rhode Island. A FEMA program that addresses that exact 
problem is called ``You Are the Help Until Help Arrives,'' and 
it is really aimed at untrained civilians, to really take 
action when there are not first responders around. And it spans 
any citizen, so whether it is faith-based or it is just a 
spontaneous volunteer. Now we are really working hard to make 
sure that we develop that capacity at the grassroots level. I 
think it is a wonderful program. We have had great feedback on 
it. Another great program is ``Stop the Bleed,'' kind of a 
sister program to that, really aimed at law enforcement and 
others. But we have had some great programs.
    Again, I go back to my local and State experience. This is 
a team sport, and I realize, over the past 10 years, that this 
is not a single department working on that challenge alone. It 
takes everyone. It takes individuals. It takes faith-based. It 
takes CERT teams and others to make success. And I think FEMA 
has been on the right track. I am sure it will get better. 
Especially after last season, you have to increase that 
bandwidth.
    Senator Lankford. As we have talked about before, we had, 
in Oklahoma, obviously some major tornadoes and such that have 
occurred at different times, in different years. And several 
years ago, after one of those major tornadoes, the media coined 
a term, saying before FEMA arrived ``faith FEMA'' had already 
showed up. And churches and everybody was jumping in to be able 
to help. What we do not want to have is a situation where FEMA 
shows up and says, ``We have it,'' and pushing help away that 
is nonprofits, faith-based, neighbors, and communities. They 
have to be able to help form that ring around their local 
community.
    Mr. Gaynor. If I could just follow up, one of the best 
successes we had at the local level is, it is really hard to 
attract individual volunteers. It is really easy to attract 
volunteer groups that are already pre-organized. So we had some 
great success with faith-based organizations. They come ready, 
trained, motivated, and they want to do specific missions that 
fit right into what a local or State needs to do. So I think it 
is all compatible with the end goal.
    Senator Lankford. Great. Thank you.
    Chairman Johnson. Senator Jones.

               OPENING STATEMENT OF SENATOR JONES

    Senator Jones. Thank you, Mr. Chairman, and thank you both 
for your careers and your willingness to serve in the 
capacities to which you have been nominated.
    Mr. Bryan, I want to especially congratulate you because 
you obviously came prepared. You have watched a lot of the 
hearings and know that sometimes Trump Administration nominees 
get grilled pretty hard, so you came prepared to play the 
grandchildren card, if necessary. And I often play that myself, 
so I appreciate it very much.
    Senator McCaskill. Me too. I have 11. There you go.
    Senator Jones. I would like to ask you, Mr. Bryan, in the 
Homeland Security Act of 2002, it directed S&T to set up a 
network of university centers to enhance the Nation's homeland 
security. This is called a Centers of Excellence network. So I 
would like to get just your general thoughts on the program, 
how the centers may have contributed to the mission of S&T, and 
if you can think of any improvements or changes to the programs 
you would suggest.
    Mr. Bryan. Yes, Senator. Thank you for that question. The 
Centers of Excellence, in my view, have been very successful. 
They have allowed us to have access to a whole different set of 
minds, for lack of a better term, at different levels. I think 
in this space of research and development and science and 
technology, you can never close a door on your specter of 
influence and who can contribute to that. Our Centers of 
Excellence do that. They also provide a great tool for the 
customers, the components within the Department of Homeland 
Security, to be able to tap into them for some of their 
research needs. They have been very valuable.
    We have had a couple of successes coming out of our Centers 
of Excellence. One of them has been our storm surge modeling 
come out of the University of North Carolina. It is a well-used 
model. It is used by the Coast Guard very frequently. It is 
used by others in predicting a storm surge. Traffic Cop is also 
a success that came out of a former Center of Excellence, out 
of Rutgers. We are actually able to identify perpetrators of 
child sex trafficking, and not just the perpetrators but we are 
able to recover the victims of child sex trafficking, and we 
have been able to recover them by the hundreds. So there have 
been very successful programs out of our Centers of Excellence.
    Senator Jones. Great. Thank you. Thank you, sir. Mr. 
Gaynor, are you familiar with the Center for Domestic 
Preparedness (CDP) in Anniston, Alabama?
    Well, I think it is the only U.S. Federal facility 
chartered to provide real comprehensive preparedness training 
programs for emergency response providers. In 2017, during the 
horrific hurricane season, the CDP had to stop all training 
programs for a period of months in order to devote its full 
resources to just immediate preparation for first responders in 
the different areas.
    So I would like to ask you if you would consider an 
expansion of the CDP in some way in order for that not to 
happen. I think we can all agree that, as much as we do not 
like to admit it, it is going to happen again at some point. 
Would you consider an expansion or other models that would 
allow the center to continue its operations while maybe 
deploying first responding training outside of that facility?
    Mr. Gaynor. Senator, I do not know all the details of the 
Anniston problem but I will commit to you that if nominated I 
will take a deep dive into that and see what some of the 
solution sets may be.
    Senator Jones. Great. Well, if you would stay in touch with 
us, and maybe when you get a moment come over and we can kind 
of brief you a little bit and talk about that and work together 
on that, I would appreciate it.
    Mr. Gaynor. I would be happy to do that.
    Senator Jones. I would like to ask this question, though. 
It seems to me. Mr. Gaynor, that one of the things that we have 
to do in order to prepare for future disasters is an education 
program, and you have talked about, in your testimony, 
educating and trying to prepare for future disasters and not 
just responding to those that have happened.
    But it seems to me that one of the things that we need to 
do is also recognize the causes of these disasters. And I have 
been a little bit concerned that you might not recognize the 
global warming issue that I think, scientifically, is a fact 
these days. Should that be a component of community education 
about the need for preparedness in the future?
    Mr. Gaynor. If I go back to just, again, to my State and 
local experience, we do these things called ``Hazard 
Identification Risk Analysis (HIRA) Plans,'' and we examine all 
impacts for hazards in Rhode Island or New England--all 
different kinds of data sets whether it be human caused or 
environmental, to really understand what the impacts may be and 
what preparations we need to do at the local and State level.
    So I think we already do it. The other thing that is a 
challenge is preparedness for the community. In some cases, if 
you live far away from Florida or the Gulf Coast, where you see 
hurricane after hurricane, year after year, in a community that 
may not have an impact, it is hard to get people to just 
prepare themselves, prepare their family, prepare their 
business for what may happen. It is a constant goal of ours to 
make sure people are as prepared as possible.
    Human nature is, I have seen that on TV. It only happens on 
TV. It does not happen to me. I do not have to prepare. We have 
to change that culture in the United States to make sure that 
people understand what the risks are and what they need to do 
to reduce those risks, to make sure they can save lives and 
property.
    Senator Jones. Well, let me ask you this, because--and 
regardless of the cause, which can be debated, I guess, is 
global warming real and should that be a consideration for FEMA 
as you go forward?
    Mr. Gaynor. Well, I think if you look at some of the 
studies, and I forget the name of it, but, as far back as the 
1970s, you see the increase of storms and disasters on the 
rise. So you cannot escape the fact that the impact of 
disasters on communities has increased. I think we need to just 
stipulate that the climate has changed.
    And from a practical point of view, as an emergency manager 
practitioner, what can we do to reduce loss of live and reduce 
the loss of property, and let us do more on pre-disaster 
mitigation. We spend an awful lot of money, post-disaster, 
because that is how we do it in this Nation. I have run some 
numbers in Rhode Island for the last 8 or 10 years, and we 
spend about 15 percent of disaster, or pre-disaster mitigation 
dollars before the disaster and 85 after. I think if we can 
work on a program to flip that around, I think the result will 
be much better for everyone, to include, economically, to save 
money post-disaster.
    Senator Jones. Great. Well, thank you. Thank you both for 
being here today, and thank you, Mr. Chairman.
    Chairman Johnson. Senator Carper, are you ready? Then take 
it away.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Good morning. How is it going?
    Mr. Bryan. Excellent.
    Senator Carper. How are they doing?
    Mr. Gaynor. Outstanding.
    Chairman Johnson. They are doing great.
    Senator Carper. That is good.
    Chairman Johnson. Highly qualified.
    Senator Carper. That is great.
    As you know, FEMA grant programs help States. I am from 
Delaware, but we have a wonderful relationship with FEMA. We 
very much value that, and I am speaking for all of our folks at 
Delaware Emergency Management Agency (DEMA). We convey our 
gratitude.
    But the FEMA grant programs help, as you know, States, 
localities prepare for natural and man-made disasters. There 
are plenty of both right now. And it can help save lives. In 
Delaware, many different organizations make full use of these 
important programs.
    Last year, I think the Administration's budget request for 
fiscal 2019 called for reductions in funding for FEMA State and 
local grants. And I think, if I am not mistaken, the 
President's budget decreases funding to programs that are 
important to us. We have the biggest banana port in the 
country. We are top banana. And we are right on the East Coast, 
and bringing a lot of other commodities as well. But as I 
recall, the President's budget called for decreases in port 
security grant programs and State homeland security grant 
programs.
    With this in mind, my question would be, in considering 
your experience in emergency management and preparedness 
efforts, what are your thoughts with respect to the President's 
budget and the importance of FEMA grant programs? And, Mr. 
Gaynor, would you go first?
    Mr. Gaynor. Yes, sir. Thank you. It was a pleasure meeting 
with you and your staff a couple of weeks ago.
    Back to my State and local role, we are the recipient of 
many different Federal grant programs--non-disaster grant 
programs, from Emergency Management Performance Grant (EMPG), 
to homeland security grants and many others. It really provides 
much needed capacity to locals who do not really have the 
ability to do something innovative or to try to reduce that 
risk.
    The challenge is really balancing what the priorities are 
all the time. After 9/11, we had lots of money to do lots of 
things that were needed. Grant funding has steadily decreased 
since that time, and again, speaking for myself, we try to be 
wiser about how we use that grant money, to make sure that it 
all does not go to sustainment.
    So I think the process has to be dynamic. It is not static. 
We need to change, over time, with what the threats are. And so 
the grants are designed to build capacity at the local level. 
So if you use that money, build that capacity, that is a 
success, and now the grant funding is designed to move on to 
the next priority.
    So again, facing budget constraints at the local and State 
level, I think it is just the way it works, is that you have to 
manage within the resources that you have, determine what your 
priorities are, and boldly try to achieve all those things with 
the resources that you have been given. So flexibility in 
grants, I think, is important from the local level all the way 
to the Federal Government.
    Senator Carper. When you think about your experience at the 
State and local level, and you look to this particular position 
for which you have been nominated, what are some of the ways 
that it has been most helpful in preparing you for this? Your 
previous experience--how has it helped prepare you for 
this?What has been most helpful?
    Mr. Gaynor. So I think the thing that I have learned the 
most, and I have derived the most from, is that you really have 
to make--and I will go back to grants. We buy a lot of stuff 
with grants. I call it bright, shiny objects.
    Sometimes it is cool to go buy the boat or the fire truck. 
I am not sure we have invested enough in people when it comes 
to making sure people are ready, willing, and able. And I will 
talk about emergency management and public safety 
professionals. You can write all the greatest plans that you 
want, but if you do not have the right trained people, with 
good leadership to execute that plan when the plan falls apart, 
the system really does not work.
    So I think I have learned, let us put more investment in 
people to make sure that they are able to live up to the 
demands that the American people, or local or State, expect of 
them. So I would like to see more investment in making sure 
that people are well trained, well screened, and ready to be 
flexible, especially in this business, be flexible and 
adaptable to whatever the challenge may bring.
    Senator Carper. Good. That makes a lot of sense.
    Mr. Bryan, I was walking down the hall, and as I was coming 
along I saw some baby carriages out there, and a very sweet 
little boy and a lovely little girl. And I think they might be 
related to you.
    Mr. Bryan. I am responsible. Yes, Senator.
    Senator Carper. Is anybody else in the room responsible for 
them?
    Mr. Bryan. Right now I have a whole bunch that are kind of 
keeping a look out for each other.
    Senator Carper. Anybody else in your family?
    Mr. Bryan. Yes, Senator. I have my wife.
    Senator Carper. Which one is your wife?
    Mr. Bryan. This is my wife.
    Senator Carper. How are you, ma'am? Nice to see you.
    Mr. Bryan. I have two daughters that are here with me, as 
well as a daughter-in-law, and then eight grandchildren.
    Senator Carper. You have us outnumbered.
    Mr. Bryan. Yes. By design, Senator.
    Senator Carper. All right. I want to ask one question of 
you, if I could. I have been blessed to be on this Committee 
for about 18 years, and I have spent a fair amount of time with 
some of my colleagues to try to enhance the skills of folks who 
work at the Department of Homeland Security to better enable 
them and our country to deal with some of the cyber threats 
that we have faced and continue to face. And a big part of 
that, we talked about workforce and having a workforce that is 
able to help in a variety of ways, at FEMA.
    But with that in mind, how would you prioritize research 
and development in cybersecurity in order to better protect us 
and our critical infrastructure against the threats that we 
face today and in the future? Just talk with us a little bit 
about priorities assigned to research and development in 
cybersecurity.
    Mr. Bryan. Yes, Senator. The role that we play is actually, 
and should be, in response to requirements from the customers. 
They actually drive our requirements. We happen to have a very 
good working relationship with National Protection and Programs 
Directorate (NPPD) right now. We have shared all of our cyber 
R&D activities going on within S&T with NPPD. They are not our 
only customer. We provide cyber support and security support 
across the enterprise. But they are a key partner for us in 
this business space, and they actually drive the priorities for 
us.
    Senator Carper. The only other thing I would just note--how 
old is that young man, or these young guys over your right 
shoulder? How old are they?
    Mr. Bryan. Jadon is 13, and Evan is 5.
    Senator Carper. All right. We have three boys, and when 
they were 13 and 5 there was no way in the world we would have 
brought them in this room.[Laughter.]
    I must say, I am impressed.
    Mr. Bryan. I have lost a good number of them there 
somewhere.
    Senator Carper. All right. Well, good to see you. Thanks so 
much.
    Mr. Bryan. Thank you, Senator.
    Chairman Johnson. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman. I think he is 
exhibiting exceptional homeland security skills here in this 
area, myself.
    I want to thank both the nominees for coming here today. 
Mr. Gaynor, Mr. Bryan, you are both exceptionally qualified for 
your respective positions, and frankly we should be grateful 
for your willingness to continue serving our country in these 
critical roles, despite the fact that it is taking the Senate 
way too long to get nominations through. You are patient with 
us, and we appreciate that. And thanks for the willingness to 
do the job.
    Mr. Gaynor, I appreciated our meeting that we had a few 
weeks ago and learning more about your extensive background. As 
the son of a U.S. Marine, I also want to thank you for your 26 
years of service in the Marine Corps. We need this position 
filled sooner versus later, especially as hurricane season 
approaches, and I believe your knowledge, your experience, your 
proven track record makes you the right person for this job.
    It is getting late into August, which means it is wildfire 
season in Montana. I live just a couple of miles away from a 
beautiful mountain range, literally out my back window. I 
cannot see the bridge on some mornings right now because of all 
the smoke. We have had 918 wildfires in this fire season in 
Montana to date. Last year we had a devastating season--1.4 
million acres burned in Montana alone. Fire management 
assistance grants are extremely helpful for large fires that 
exceed the State's ability to cover that cost. In fact, last 
year FEMA issued eight of these grants for Montana, and I 
greatly appreciate Administrator Long's assistance in getting 
these emergency funds for Montana.
    Quickly responding to Fire Management Assistance Grants 
(FMAG) requests and issuing reimbursements is critical for the 
recovery of Montana's impacted communities. Furthermore, 
simplifying that process and providing clear guidance for grant 
eligibility, especially for more rural areas, would be very 
beneficial. As you mentioned, and I quote, ``We cannot work 
alone in our efforts to diminish the impact of disasters. 
Effective dialogue between all levels of government certainly 
is needed.''
    Mr. Gaynor, will you commit to work with Montana to ensure 
that FMAG requests, and other forms of FEMA assistance, are 
considered and provided for in an efficient and fair manner?
    Mr. Gaynor. I will, Senator, and I enjoyed our discussion, 
and I want to thank you for my crash course in wildfires. I 
appreciate that.
    I think FMAG is a really good program. It does a lot of the 
work up front, so when you need it, it is available. I think 
that is a pretty good model, and I know the Administrator is 
supportive of all things when it comes to wildfires.
    Senator Daines. And unfortunately, wildfires are not the 
only natural disasters that we have in a place like Montana. We 
do not have hurricanes. We rarely have tornadoes. But we have 
fires and we have floods. In fact, this spring, due to a 
combination of factors including high levels of snowpack, you 
have to remember that the headwaters of the Missouri River form 
about 30 miles west of where I grew up, in Three Forks, 
Montana, where the Jefferson, the Madison, and the Gallatin 
come together and form the Missouri. So we really are, in many 
ways, the headwaters of the Nation's key waterways, because 
that Missouri, of course, flows eventually into the 
Mississippi.
    But we had high levels of snowpack. We had heavy rains. We 
had severe flooding taking place throughout our State. Montana 
issued a major disaster declaration request in June, and I 
recently sent a letter, with Congressman Gianforte of Montana, 
strongly urging Administrator Long to support the request. I 
would also encourage you to take a look at the impact and 
damage done to the State by the flooding. And by the way, just 
because you have a lot of snowpack and spring rains does not 
mean you are not going to have a fire season, and what we find 
out is that when you have a lot of snowpack and a lot of spring 
rain, then if it dries up you just created more fuel because 
the grasses grow a little higher, and most fires start by 
lightning, and that is why they oftentimes, good snowpack does 
not mean low risk of fires.
    Mr. Gaynor, should the request be granted, will you commit 
to ensuring swift deployment of FEMA resources so these 
communities in Montana can rebuild and restore their way of 
life?
    Mr. Gaynor. Senator, if confirmed I will absolutely commit 
to that.
    Senator Daines. Thank you.
    Mr. Bryan, I appreciate the discussion we had last week in 
my office, and was encouraged to discuss some new ideas for the 
Support Anti-Terrorism by Fostering Effective Technologies 
(SAFETY) Act. I think we both agree that the world we live in, 
and threats we face, and the technologies we use to protect 
ourselves have evolved since the act actually was first passed 
back in 2002. That was a long time ago. It is important that we 
maintain proven risk management protections while also adapting 
to keep this law relevant into the next decade.
    As you know, progress on the Cyber SAFETY Act has stalled 
over the past few months. The question is, will you commit to 
work with this Committee, and its associated stakeholders, 
toward a common solution?
    Mr. Bryan. Senator, thank you for that question and thank 
you also for your time that you gave to me during that meeting. 
It was a great discussion. I also want to thank you for your 
appreciation of the SAFETY Act, and you recognize the value of 
the SAFETY Act. It has been a great program. It has given 
industry, frankly, incentivized industry, for lack of a better 
term, to invest hundreds of millions of dollars in security 
across several different sectors. And, in fact, we have 
actually issued 16 applications, approved applications for 
cyber-related technologies that are being used by Boeing, 
Emerson, Cisco, and others in the cyber field.
    I believe, though, that any expansion of the Cyber Act and, 
if confirmed, I am eager to bring a team to your office and 
work with your staff, because you mentioned that the SAFETY Act 
was developed in 2002, right after 9/11. They did not envision 
the school shootings that we are seeing today, it did not 
envision the soft targets that we are seeing today, and they 
did not see the cyber threat that we see today. And I think the 
entire SAFETY Act is poised to look at a revision of the entire 
act, and make sure that the standards are high, that we do not 
dis-incentivize anyone from making those investments to keep 
both the cyber and the physical security avenues safe. And if 
confirmed I am committed to working with your staff to come up 
with the right solution for the Nation.
    Senator Daines. Thank you, Mr. Bryan. Last question, and 
this regards meth and opioids. In Montana, we are facing a 
substance abuse epidemic, especially with meth and heroin. In 
fact, in July, the Montana Department of Justice released its 
Forensic Science Division's 2017 Annual Report. Listen to these 
enormous increases. A 415 percent increase in meth. A 1,234 
percent increase in heroin. That was found in controlled 
substance cases going from 2011 to 2017, and I know other 
States are grappling with similar issues. And as we see the 
increase in violent crime, oftentimes it is tied directly back 
to drugs.
    My question is, how is S&T supporting efforts to address 
the meth and the opioid substance abuse crisis in our country?
    Mr. Bryan. Thank you, Senator. We have received very 
specific requirements from CBP to work that issue, and we are 
working it as we speak, on three fronts. The first is high 
throughput standoff detection of these drugs coming in, and 
certainly we are focusing on opioids, fentanyl, for example. 
But what we are finding is we develop these technologies that 
we are going to be able to look at other drugs as well, and not 
just that this includes your heroin and your meth.
    So the first level of technology is going to be the 
standoff high throughput screening, and there will be a 
secondary screening technology we are looking at developing. As 
we get closer to some of those chemicals, particularly 
fentanyl, it could be very dangerous for the screener, so we 
are also having to look at protective equipment and other gear 
to keep the personnel safe while they are doing it, and we are 
also looking at our big data engines to do some analysis of the 
methodologies we use to actually interdict the supply chain 
back where they came from, so we have the greater chance of 
targeting the packages that are coming in. We are doing this at 
international mail locations as well as secondary parcel 
locations, and other ports of entry as they come into the 
country.
    So this is the focus we are looking at right now. I think 
we have fixed the opioid piece. The meth and heroin piece will 
be taken care of at the same time.
    Senator Daines. Last comment, and I know I am way over my 
time, but when we think about Montana we have a Northern 
Border, but we have found most of these drugs are coming up 
from the Southern Border. The importance of securing our 
Southern Border is critically important for the issue of drugs. 
Thank you.
    Chairman Johnson. Thank you, Senator Daines. I will start 
with you, Mr. Gaynor. During a number of lines of questioning 
from my colleagues the thought running through my brain was the 
old saw that an ounce of protection is worth a pound of cure. 
We have a bill we are trying to pass, I think the Federal 
Aviation Administration (FAA) authorization bill, the Disaster 
Recovery Reform Act, that really does focus on pre-disaster 
mitigation.
    I do want to just kind of talk with you in terms of how you 
view disaster response and really what the proper order is. 
From my own standpoint, let us say something happens in a 
community. If that community's disaster recovery system is 
overwhelmed, surrounding communities often respond, whether it 
is fire departments, whether it is police. If that overwhelms 
those communities, then the State starts taking a role, and 
then the Federal Government. In my mind that is kind of how 
this whole process begins, and I know Director Long is really 
talking about how do we stand up the State emergency response 
so that we really have this thing established.
    One of my concerns is that as we look more and more to 
FEMA, have them almost become the first responder, and in far 
too many instances in States stand back and they do not really 
stand up their emergency response. So please just kind of 
address what your vision of that would be and what we need to 
do.
    Mr. Gaynor. And, Senator, I think you are exactly right, 
and I will start with my perspective as a local and State 
director, is my ability to be successful is dependent on how 
well my local municipalities have capacity. Have they done 
planning? Have they done integrated planning? Have they 
exercised? Have they trained? Do they have the equipment? And 
does everyone know what the other plans are?
    Chairman Johnson. Let me just interject. Is this not where 
you, in response to some other crises, said we need to spend a 
little more time on money and personnel? I mean, the shiny 
objects are great, but you really need that training, and you 
need that commitment, first and foremost, at the local level, 
to plan ahead. And again, we are human beings and we 
procrastinate. But go ahead.
    Mr. Gaynor. So you are absolutely right. But it is a 
complete integrated enterprise. So, you need a little bit of 
everything. I think the most important part, like I said 
before, is people. It does not matter what things you buy, how 
great the plan is, and I will use my military experience. Our 
assumption in writing that plan before we step off is that that 
plan is going to fall apart. And the reason why I think the 
U.S. military is so successful is because part of the culture 
is young leaders take the intent of that plan and make it 
successful. Right? They do not have to know the entire plan but 
they just have to know how to make it successful.
    So back to well-trained FEMA employees or well-trained 
local employees or State employees. You have to make that 
investment so when the plan falls apart or it does not go as 
planned, or something new happens, you trust your employees or 
your team to get you across the finish line. I think that has 
been my focus, I have put a lot more effort than I ever thought 
I would in screening and evaluating and selecting new 
employees, to make sure they are well trained, make sure I 
invest in them after I hire them, and make sure they understand 
what their role is. And for me, I have a great team at RIEMA. 
Life has become much easier than it used to be, because I think 
I have invested in personnel up front.
    And I will go to the sexual harassment issue with FEMA. I 
think that may be a result of something that has happened on 
entry level. Maybe we did not put enough effort into screening 
people to make sure that we hired the best and the brightest.
    Chairman Johnson. You mentioned in your opening comment 
that you thrive in chaos. I mean, the whole point is to quell 
the chaos and return to stability. But to me it is the 
training. I mean, that is what the military does. You train and 
train and train so you are ready and hopefully never have to 
use that training, but it is just crucial.
    Mr. Gaynor. It is, and it goes to leading from the top, and 
the trust that your employees have in leadership. Make sure 
that they believe that you have their best interests at heart, 
and they will do whatever they have to do because they know 
that you are there for them. So again, things like sexual 
harassment and unfair practices in the workplace undermines 
that entire system. So again, I think leadership from the top, 
making an investment in people, and I think you can overcome a 
lot of things that are a result of, maybe a disaster going not 
exactly correctly.
    Chairman Johnson. OK. And that is where your military 
training is going to come in and be crucial in your assignment.
    Mr. Bryan, yesterday I met with the nominee for the White 
House Office, Director of Office of Science and Technology, Dr. 
Droegemeier. And we had a similar conversation to the one I had 
with you. I was at the National Lab in Idaho, run by the 
Department of Energy, last week. We have a lot of Offices of 
Science and Technology. We have a lot of people doing research. 
How do we bring those assets together? How do we coordinate it? 
How do you cooperate between all these offices, so we are not 
duplicating our efforts?
    We had a hearing in March 2015, with the Blue Ribbon Study 
Panel, and this was all on the biothreats. And the number one 
recommendation of that panel was, I do not know how many 
different appropriation accounts to address the biothreat but 
nobody is in charge.
    So I just kind of want your thoughts on that. How do you 
cooperate? How do you coordinate? How do we establish who is in 
charge, when it really comes down to the point of some real 
disasters?
    Mr. Bryan. Thank you, Mr. Chairman, for that question, and 
it was a very good discussion that you and I had and I 
appreciate your interest in this topic. I have experienced this 
topic during my days at DOD, also at the Department of Energy, 
and here now at the Department of Homeland Security. I think we 
have both used the term that we have been ``admiring a 
problem'' for a very long time, and I think everybody is trying 
to take incremental----
    Chairman Johnson. By the way, I have heard that term about 
half a dozen times, from about a half dozen different people in 
the last couple of weeks.
    Mr. Bryan. Yes.
    Chairman Johnson. So obviously we are doing a good job of 
admiring the problem.
    Mr. Bryan. We are doing a great job, Senator, of admiring 
the problem, and I think there are also a lot of people 
responsible. I think when you say who is ultimately in charge, 
I think industry has a part to play in their responsibility to 
secure that. I think the government has a responsibility to 
scope out what that problem is. We tell industry that they 
should lean forward and fix some of these issues but we do not 
tell them what to prepare for, whether it is the 1,000-year 
storm or the 100-year storm, as we have discussed earlier.
    I think for us, within the Department of Homeland Security, 
we have an Electromagnetic pulse (EMP) working group that we 
have put together right now. We are developing a strategy. It 
is in the policy shop right now, near completion. We, within 
S&T, are going to be leading the technology piece of that of 
what could we do. And I think with all the studies that have 
been going on--because you are right, a lot of people have been 
doing a lot of studying on this issue, and looking at this. So 
I do not know if there are a lot of surprises out there, but I 
think there is opportunity for us to figure out where could we 
play in this space to make at least one incremental step 
forward to making a difference in a sector or a series of 
sectors, that are going to make us safer, particularly, as you 
know, the energy sector.
    So, Senator, if confirmed, I will commit myself to doing 
that.
    Chairman Johnson. Well, again, I think what I really want 
to work with you is prioritization. Cyber is a threat, across 
the board, whether it is in financial, or whether it is in 
election, or whether it is in the electrical grid. We have our 
countering emerging threats drones. We just saw that with 
President Maduro, potentially, down in Venezuela, the 
biothreats. I mean, there are a number of threats. Some of them 
could be existential, that, science, technology, how do you 
counter drones? How do you do that without interfering with the 
airplanes in the sky? These are enormously complicated issues.
    One of the things I would like is as much help out of the 
Department to try and get that emerging threat piece of 
legislation passed in some way, shape, or form. So again, I 
appreciate your willingness to serve, and with that I will turn 
it over Senator McCaskill.
    Senator McCaskill. Thank you. Mr. Bryan, I am concerned 
about this move of NBAF to the USDA. I do not understand why. I 
do not get it. Can you explain, what is the policy rationale 
for moving this important scientific research facility on 
protecting our food supply and protecting, frankly, the essence 
of our ability to live safely, from terrorism through research, 
why that is being shifted? This is obviously very important to 
where I live. It is going to be built in Kansas. It is a very 
important part of a swath of research that is done in the 
middle of America, around bio issues.
    And so I am trying to figure out what the rational 
reasoning for moving that to USDA.
    Mr. Bryan. Thank you, Senator, and I appreciate your 
concern. I cannot specifically direct the policy of what drove 
it, the discussions that occurred before I even came on board 
with the Department to drive us in that path. I do know my 
role, and I know the importance of the facility. It has been a 
very successful acquisition, as you know, being on time and on 
budget, to stand up a billion-dollar facility in Kansas, and we 
played a critical role, and we will continue to play a critical 
role in that.
    Our engagement with the USDA is solid. Our transitioning 
planning is going very well. We recognize that they have a 
safety role to play and we have a security role to play, and we 
are going to continue to stay engaged, and working and 
operating at that facility.
    Senator McCaskill. Well, is it the overhead? They think the 
Department of Health and Human Services (HHS) budget can more 
easily handle the overhead of the facility? I mean, this is not 
going to work if this is used down the line as a way to put the 
pressure on funding this research all within USDA instead of 
Homeland.
    Mr. Bryan. Well, as you know, Senator, USDA plays a key, 
significant role at Plum Island, and they are going to be 
playing again, I think, a larger key, significant role at NBAF, 
that I am sure factored into that. We just do not want to lose 
our ability to be able to tap into that resource, because it is 
a national asset.
    Senator McCaskill. Well, and you guys are going to have to 
help pay for it. I mean, we are going to have this amazing 
asset that will handle a significant amount of research, and 
what would be most disappointing to taxpayers would be for them 
to make this kind of investment and not have it fully utilized.
    And so I am going to continue to monitor this. I would like 
a clearer answer as to why this transition occurred, if it does 
have to do with budget, because that means, somebody somewhere 
is deciding, let us pull back on the budget role of DHS and 
push forward the budget role of USDA. And usually when that 
happens, something gives, and I want to try to figure that out.
    So if you would continue to poke at that problem, we are 
going to probably continue to ask you to.
    Mr. Bryan. Yes, Senator, we will.
    Senator McCaskill. The other thing I really wanted to get 
to today, two other things, and they are both for you, Mr. 
Gaynor. Will you commit to fully and promptly implementing the 
GAO recommendation about the investigation on employee 
misconduct?
    Mr. Gaynor. Yes, ma'am.
    Senator McCaskill. OK. I wanted to get that on the record.
    And then let us talk about pre-positioning contracts. Pre-
positioned contracts for disasters save the taxpayers tens upon 
millions upon hundreds of millions of dollars. I am not going 
to hold you to it today, Mr. Gaynor, but I would like, in 
writing, your ideas on how we can incentivize State and local 
governments to pre-positioned contracts. They do not really 
have an incentive now, and I think we could incentivize them to 
do that.
    And the more pre-positioned contracts we have--I mean, some 
of the most outrageous things we saw after the last hurricane 
season were people getting bids to provide meals that had no 
capacity to provide the meals that they were contracted with. 
Providing meals in a local community, that is something that 
could be pre-positioned at the State and local level, and would 
not be done at the Federal level. And by its very nature, if it 
stays at the State and local level it is going to be cheaper.
    Mr. Gaynor. Ma'am, you have my commitment to try to 
incentivize that. I think through the preparedness grants, FEMA 
and DHS incentivize a lot of things, such as fusion centers and 
cyber, based on evolving threats. There is probably a way to 
incentivize State and local governments to do more work on 
contract pre-positioning.
    Senator McCaskill. Because they are not expensive to do.
    Mr. Gaynor. They are not expensive to do if you know how to 
do them.
    Senator McCaskill. Right.
    Mr. Gaynor. I think it may be education or----
    Senator McCaskill. Maybe there is a training program you 
guys could do. Maybe you could take your contracting people and 
provide, especially in those States that are in most danger of 
hurricanes, tornadoes, and fires, and with technology now you 
could do it without an expensive conference. You could actually 
require communities that want to access FEMA help to do some 
online training--live time, not interactive but live time 
training on how you actually do pre-positioned contracts for 
disasters.
    Mr. Gaynor. I think it is a great idea. And so being an 
emergency manager you have to be multifaceted, and so one day 
you are an emergency manager and maybe with this you would 
really have to be a program manager to make sure that you 
design your preparedness program, your preparedness planning to 
make sure that you have all those things ready to go.
    And again, I speak for myself. We have local and State pre-
disaster contracts for a number of different things, so maybe a 
survey to see, like, where do we really stand in the United 
States on what depth we have on that. But FEMA has a great 
technical assistance program and that could be part of it.
    Senator McCaskill. I think that would be a great idea. 
Thank you, Mr. Chairman, and I will look forward to working 
with you all in the future.
    Chairman Johnson. Thank you, Senator McCaskill. Again, we 
want to thank both of you for your past service, your 
willingness to serve in the future, and certainly your families 
as well.
    With that, the nominees have filed responses to 
biographical and financial questionnaires, answered pre-hearing 
questions submitted by the Committee, and had their financial 
statements reviewed by the Office of Government Ethics. Without 
objection, this information will be made part of the hearing 
record,\1\ with the exception of the financial data, which are 
on file and available for public inspection in the Committee 
offices.\2\
---------------------------------------------------------------------------
    \1\ The information submitted by Mr. Bryan appears in the Appendix 
on page 42.
    \2\ The information submitted by Mr. Gaynor appears in the Appendix 
on page 102.
---------------------------------------------------------------------------
    The hearing record will remain open until noon tomorrow, 
August 23rd, for the submission of statements and questions for 
the record.
    This hearing is adjourned.
    [Whereupon, at 11:25 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
